                                                     André Birotte Jr.
                          NEWS                          United States Attorney
                         RELEASE                      Central District of California

                                                    Thom Mrozek, Public Affairs Officer
                       For Immediate Distribution           (213) 894-6947
                                                          thom.mrozek@usdoj.gov
                     September 1, 2011                    www.justice.gov/usao/cac




  BAY AREA WOMAN PLEADS GUILTY TO TAX FRAUD FOR FILING
     TAX RETURNS THAT CLAIMED NON-EXISTENT DEPENDENTS


 Former L.A. Resident Claimed She Bore 20 Different Children – All on Same Day


       LOS ANGELES – A former Los Angeles resident who now resides in Livermore,
California pleaded guilty late today to federal charges related to a scheme in which she
filed fraudulent federal tax returns that claimed deductions for 20 non-existent children.
       Norma Coronel, 40, pleaded guilty this afternoon in United States District Court
to three felony counts – aiding and assisting in the preparation of fraudulent federal
income tax returns, fraudulently using Social Security numbers obtained with false
information, and theft of government property.
       Coronel pleaded guilty before United States District Judge Manuel Real, who
scheduled a sentencing hearing for November 28. As a result of today’s guilty pleas,
Coronel faces a statutory maximum sentence of 18 years in federal prison.
       In a plea agreement filed in this case, Coronel admitted that in 2003 she applied
for and obtained Social Security numbers for at least 20 fictitious children that she
falsely claimed had been born to her at a Los Angeles hospital on December 11, 2002.
Using these bogus identities, Coronel prepared and filed fraudulent federal tax returns
for family members and friends that claimed dependent deductions and sought
unwarranted refunds.
       Coronel admitted in the plea agreement that she had frequently directed the
Internal Revenue Service to send the unwarranted refunds to her own residence or to
accounts that she controlled. Coronel either failed to provide the taxpayers with copies
of the returns that she had filed, or gave them copies of fake returns that had never
been filed. As a result, the taxpayers were not aware that Coronel had filed fraudulent
returns in their names or that Coronel was using the returns to obtain the refunds for
her own benefit.
      Coronel admitted in the plea agreement that as a result of her filing the false
returns the government suffered losses totaling $309,164.
      In addition to the potential 18-year prison term, at sentencing Coronel faces a
maximum fine of $750,000. Coronel has also agreed to make full restitution to the
United States.
      The investigation and prosecution of Coronel was conducted by IRS - Criminal
Investigation; The Treasury Department’s Office of Inspector General for Tax
Administration, and the Social Security Administration, Office of Inspector General.


      CONTACT: Assistant United States Attorney Paul H. Rochmes
                           Tax Division
                           (213) 894-2413


      Release No. 11-125
